-1-

No. _ _ __

Jn tbe ~upreme QCourt of tbe mniteb ~tate~
GREG SKIPPER, WARDEN, PETITIONER
V.

CURTIS JEROME BYRD
MOTION TO EXTEND TIME TO FILE A PETITION FOR A WRIT OF CERTIORARI

To the Honorable Sonia Sotomayor, Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Sixth Circuit
Pursuant to Supreme Court Rules 30.2 and 13.5, Warden Greg Skipper
respectfully seeks a 30-day extension of time, until February 5, 2020, in which
to file a petition for a writ of certiorari in Byrd v. Skipper, No. 2:15-cv-13528
(6th Circuit).
1.

Curtis Byrd filed a habeas corpus petition alleging that he was be-

ing held in violation of his Sixth Amendment right to effective assistance of
counsel on his conviction for first-degree felony murder, assault with intent to
rob while armed, and felony-firearm.
In his petition, Byrd raised both an ineffective-assistance-of-trial-counsel
claim and an ineffective-assistance of appellate-counsel claim.
2.

The district court initially dismissed all but one of Byrd's habeas

claims-his ineffective-assistance claim. After an evidentiary hearing, the district court denied habeas on that claim as well.

-2-

3.

Byrd appealed the denial of habeas only on the ineffective-assis-

tance claim to the Sixth Circuit, which reversed the district court's denial of
habeas in a 2-1 decision.
4.

Consistent with Supreme Court Rule 10, the State of Michigan

plans to file a petition for a writ of certiorari because this case presents the
substantial question of whether the decision below conflicts with the relevant
decisions of the United States Supreme Court. Rule lO(c).
5.

The decision in Byrd conflicts with the Supreme Court's decisions

in Missouri v. Frye, 566 U.S. 134 (2012) and Lafler v. Cooper, 566 U.S. 156
(2012).

Lafler and Frye define the scope of the Sixth Amendment right to counsel
with respect to plea bargains.
6.

The decision below also creates a circuit split. Rule lO(a) Notably,

now-Justice Gorsuch explained while on the 10th Circuit that it would be a
"novel reading" of Lafler and Frye to determine that trial counsel was deficient
for failing to request a favorable guilty plea when no plea had been offered.

United States v. Rendon-Martinez, 497 F. App'x 848, 849 (10th Cir. 2012) (Gorsuch, J.).
7.

The State of Michigan plans to raise the following significant

question in its petition for a writ of certiorari:
Does the Sixth Amendment right to effective assistance of counsel
include the right to a plea offer that was never made?

-3-

8.

On November 4, 2019, the Sixth Circuit ordered that the man-

date be stayed to allow Appellee Greg Skipper time to file a petition for a writ
of certiorari.
9.

Pursuant to Rule 13.5, good cause exists for an extension. The

due date, 90 days from the issuance of the mandate, is January 6, 2020, which
falls directly after the holidays and thus, after a number of days where state
offices are closed. That timing, combined with the press of business in the office, makes the January 6, deadline difficult.
10.

Pursuant to Rule 30.2, this extension is being sought more than

10 days before the specified final filing date of January 6, as computed under
Supreme Court Rules.
In sum, Michigan requests that the Court extend the time in which to
file a petition for writ of certiorari until February 5, 2020.
Respectfully submitted,
Dana Nessel
Michigan Attorney General

~Jvb(( t ( ~ rr_Yt-l{d~~~

FadwaA.Hammoud
r'tlllf17Jf.~
Solicitor General
Counsel of Record
P.O. Box 30212,
Lansing, MI 48909
HammoudFl@michigan.gov
(517) 335-7628

Ann M. Sherman
Deputy Solicitor General
Dated: DECEMBER 2019

Attorneys for Petitioner

